No. 21-363

In the Supreme Court of the United States
__________________
WENDY MARIE MEIGS,
Petitioner,
v.
TREY BERGMAN AND BERGMAN ADR GROUP,
Respondents.
__________________

On Petition for Writ of Certiorari to the
Supreme Court of Texas
__________________

RESPONDENTS’ BRIEF IN OPPOSITION TO
PETITION FOR WRIT OF CERTIORARI
__________________
DIANA L. FAUST
DAVID WAYNE CLAWATER
Counsel of Record
SCOTT, CLAWATER &
MICHELLE E. ROBBERSON
HOUSTON, L.L.P.
COOPER & SCULLY, P.C.
2727 Allen Parkway
900 Jackson Street
Houston, Texas 77019-2115
Suite 100
(713) 650-6600
Dallas, Texas 75202
wclawater@schlawyers.com
(214) 712-9500
diana.faust@cooperscullly.com
michelle.robberson@cooperscully.com

Counsel for Respondents
Trey Bergman and Bergman ADR Group
October 8, 2021
Becker Gallagher · Cincinnati, OH · Washington, D.C. · 800.890.5001

i
QUESTIONS PRESENTED
1. Whether this Court has jurisdiction to review
this case, where Meigs has never raised in the lower
state courts any claim under 42 U.S.C. § 1983 or any
alleged violation of the United States Constitution
through Texas’ mediation process, and where no Texas
court ever has addressed any of these issues or the two
“questions presented” by Meigs’s Petition.
2. Whether Meigs is entitled to any review of her
Questions Presented, where she failed to challenge in
the Supreme Court of Texas the disposition of the
intermediate court of appeals—which affirmed the
grant of summary judgment in Respondents’
favor—because under Texas law, Meigs failed to
address all grounds raised by Respondents in light of
the summary judgment order signed by the Texas trial
court?

ii
TABLE OF CONTENTS
QUESTIONS PRESENTED . . . . . . . . . . . . . . . . . . . i
TABLE OF AUTHORITIES . . . . . . . . . . . . . . . . . . . v
OPINIONS BELOW. . . . . . . . . . . . . . . . . . . . . . . . . . 1
JURISDICTION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 2
CONSTITUTIONAL AND STATUTORY
PROVISIONS INVOLVED . . . . . . . . . . . . . . . . . . . . 2
COUNTERSTATEMENT OF THE CASE . . . . . . . . 3
I. Factual and Procedural History Through
Intermediate Appellate Review . . . . . . . . . . . . . . 3
A. Factual and Procedural History of Meigs’s
Suit in Trial Court. . . . . . . . . . . . . . . . . . . . . . 3
B. Court of Appeals’ Disposition . . . . . . . . . . . . . 7
II. Supreme Court of Texas Proceedings . . . . . . . . . 9
REASONS FOR DENYING THE PETITION. . . . . 11
I.

This Court Has No Jurisdiction . . . . . . . . . . 11

II.

Misstatements of Fact and Law Bear on
Jurisdiction and the Issues that Could
Potentially be Considered . . . . . . . . . . . . . . . 21
A. Respondents Challenge the Bases Meigs’s
Asserts for Jurisdiction . . . . . . . . . . . . . . . . . 22
B. No Constitutional or Statutory Provision
Involved; Federal Rule of Civil Procedure
8(a)(2) Inapplicable . . . . . . . . . . . . . . . . . . . . 22

iii
C. Other Misstatements of Fact and Law Bear
on Issues that Potentially Could be
Considered . . . . . . . . . . . . . . . . . . . . . . . . . . . 23
1. Misstatements of Law . . . . . . . . . . . . . . . 23
2. Misstatements of Fact . . . . . . . . . . . . . . . 25
3. This Case Does Not Meet the
Considerations Governing Review on Writ
of Certiorari . . . . . . . . . . . . . . . . . . . . . . . 28
III.

This is Not the Case to Consider the
Constitutional Ramifications of Mediation
Procedure or the Difficulties of a Pro-Se
Litigant . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 29

CONCLUSION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 30
APPENDIX
Appendix A Denial of Petitioner’s Motion for
Rehearing in the Supreme Court of
Texas
(April 9, 2021) . . . . . . . . . . . . . . . . App. 1
Appendix B Denial of Petitioner’s Petition for
Review in the Supreme Court of Texas
(January 15, 2021) . . . . . . . . . . . . App. 2
Appendix C Memorandum
Opinion
of the
Fourteenth District Court of Appeals,
Houston, Texas
(October 13, 2020) . . . . . . . . . . . . . App. 3
Appendix D Judgment of the Fourteenth District
Court of Appeals, Houston, Texas
(October 13, 2020) . . . . . . . . . . . . App. 14

iv
Appendix E Final
O rder
on D efenda nts’
Traditional and No-Evidence Motion
for Summary Judgment by the 270th
District Court, Harris County, Texas
(December 4, 2018) . . . . . . . . . . . App. 16

v
TABLE OF AUTHORITIES
CASES
Adams v. Robertson,
520 U.S. 83 (1997). . . . . . . . . . . . 11, 12, 14, 20, 21
Alexander v. Turtur and Assocs., Inc.,
146 S.W.3d 113 (Tex. 2004) . . . . . . . . . . . . . 13, 20
Bankers Life and Cas. Co. v. Crenshaw,
486 U.S. 71 (1988). . . . . . . . . . . . . . . . . . . . . . . . 12
Beck v. Washington,
369 U.S. 541 (1962). . . . . . . . . . . . . . . . . . . . . . . 12
Exxon Corp. v. Eagerton,
462 U.S. 176 (1983). . . . . . . . . . . . . . . . . . . . . . . 12
Haines v. Kerner,
404 U.S. 519 (1972). . . . . . . . . . . . . . . . . . . . . . . 24
Hathorn v. Lovorn,
457 U.S. 255 (1982). . . . . . . . . . . . . . . . . . . . . . . 12
In re L.G.,
596 S.W.3d 778 (Tex. 2020) . . . . . . . . . . . . . 13, 20
In re L.M.I.,
119 S.W.3d 707 (Tex. 2003) . . . . . . . . . . . . . 13, 20
Kaba v. Stepp,
458 F.3d 678 (7th Cir. 2006). . . . . . . . . . . . . . . . 23
Mathews v. Eldridge,
424 U.S. 319 (1976). . . . . . . . . . . . . . . . . . . . . . . 24
McNeil v. United States,
508 U.S. 106 (1993). . . . . . . . . . . . . . . . . . . . 23, 29

vi
Meigs v. Bergman,
No. 14-19-00167-CV, 2020 WL 6041772
(Tex. App.– Houston [14th Dist.] Oct. 13, 2020,
pet. denied) . . . . . . . . . . . . . . . . . . . . . . . . . passim
Meigs v. Bergman,
No. 20-0949
https://search.txcourts.gov/SearchMedia.aspx?
MediaVersionID=c3146916-57ba-464e9be6-18c930844e11&coa=cossup&DT=
BRIEFS&MediaID=eaff3539-df5c-4412-913b-0
6cefcc2fc89. . . . . . . . . . . . . . . . . . . . . . . . . 9, 10, 11
New York ex rel. Bryant v. Zimmerman,
278 U.S. 63 (1928). . . . . . . . . . . . . . . . . . . . . . . . 12
No 14-19-00167-CV, 2019 WL 5214232
(Tex. App.–Hous. (14 Dist.)) . . . . . . . . . . . . . . . . 27
Preschooler II v. Clark Cty. Schools Board of Trs.,
479 F.3d 1175 (9th Cir. 2007). . . . . . . . . . . . . . . 24
PruneYard Shopping Center v. Robins,
447 U.S. 74 (1980). . . . . . . . . . . . . . . . . . . . . . . . 12
Ryan Ops. G.P. v. Santiem-Midwest Lumber Co.,
81 F.3d 356 (3rd Cir. 1996) . . . . . . . . . . . . . . . . 27
Unifund CCR Partners v. Weaver,
262 S.W.3d 796 (Tex. 2008) . . . . . . . . . . . . . 13, 20
United States v. Goldberg,
406 F.3d 891 (7th Cir. 2005). . . . . . . . . . 24, 25, 26
Webb v. Webb,
41 U.S. 493 (1981). . . . . . . . . . . . . . . 11, 12, 20, 21

vii
CONSTITUTIONS
TEX. CONST., art. I, §§ Art. I, §§ 3, 8, 13, 15, 19. . 20
STATUTES
18 U.S.C. § 1001 . . . . . . . . . . . . . . . . . . . . . . . . . . . . 23
18 U.S.C. § 1018 . . . . . . . . . . . . . . . . . . . . . . . . . . . . 23
28 U.S.C. § 1257 . . . . . . . . . . . . . . . . . . . . . . . . . . . . 11
28 U.S.C. § 1257(a). . . . . . . . . . . . . . . . . . . . . . . 20,22
42 U.S.C. § 1983 . . . . . . . . . . . . . . . . 14, 15, 20, 22, 24
RULES & REGULATIONS
Fed. R. Civ. P. 8(a)(2) . . . . . . . . . . . . . . . . . . . . . 22, 23
Sup. Ct. R. 10(b) . . . . . . . . . . . . . . . . . . . . . . . . . 28, 29
Sup. Ct. R. 10(c) . . . . . . . . . . . . . . . . . . . . . . . . . 28, 29
Tex. R. App. P. 53.2(f) . . . . . . . . . . . . . . . . . 13, 20, 29

1
OPINIONS BELOW
The Supreme Court of Texas’ order denying
rehearing is not reported but is reprinted at Appendix
A. That Court’s order denying Meigs’s petition for
review also is not reported but is reprinted at
Appendix B.
The opinion of the Court of Appeals for the
Fourteenth District of Texas at Houston is reported at
No. 14-19-00167-CV, 2020 WL 6041772 (Tex.
App.—Houston [14th Dist.] Oct. 13, 2020, pet. denied)
(mem. op.), and is reprinted at Appendix C. That
court’s judgment is not reported, but is reprinted at
Appendix D.
The district court’s order granting summary
judgment in Respondents’ favor is reported at Meigs v.
Bergman, No. 2017-73032, 2018 WL 8512854 (270th
Dist. Ct., Harris County, Tex. Oct. 9, 2018), and is
reprinted at Appendix E.

2
JURISDICTION
Respondents deny that this Court has jurisdiction
over this case. Petitioner asserts jurisdiction through
42 U.S.C. § 1983 based on alleged violations of the
First Amendment, and due process and equal
protection Fifth and Fourteenth Amendments.
Petitioner also asserts vague claims under the Sixth
and Seventh Amendments. Even assuming jurisdiction
could exist under 28 U.S.C. § 1257(a), none of
Petitioner’s issues were raised in or adjudicated (or
could have been adjudicated) by the state courts below,
including the Supreme Court of Texas. Respondents
further deny that the case satisfies the standard set
forth in Supreme Court Rule 10. Petitioner filed her
Petition for Writ of Certiorari on September 2, 2021.
CONSTITUTIONAL AND STATUTORY
PROVISIONS INVOLVED
As discussed below, Respondents deny that any
federal constitutional or statutory provisions are
properly at issue here (or were involved in any of the
state court proceedings below), including those asserted
by Petitioner:
U.S. Constitution Amendments 1, 5, 6, 7, 14;
Federal Rule of Civil Procedure 8(a)(2).

3
COUNTERSTATEMENT OF THE CASE
I. Factual and Procedural History Through
Intermediate Appellate Review
A. Factual and Procedural History of Meigs’s
Suit in Trial Court
This litigation arose from a mediation in a business
dispute ancillary to Meigs’s divorce proceeding. Meigs,
2020 WL 6041772, *1. Meigs, her ex-husband, and
Mike Johnston were shareholders in a
pharmacy-related business, Asyntria, Inc. Id. Initially
Johnston owned fifty percent of the shares and the
Meigses split the other fifty percent equally. Id. About
the time the Meigses began divorce proceedings,
management disputes arose between the three owners
of Asyntria. Id. Meigs filed third party claims in the
divorce proceeding against Johnston and others related
to the business dispute. Id. Mediation was scheduled
between the Meigses and Johnston to try to resolve the
litigation. Id. Meigs and her attorney, Todd Zucker,
attended the mediation along with Johnston, and his
attorney, Todd Frankfort. Id. The mediator was
Respondent, Trey Bergman. Id.
Before the mediation began, Meigs’s and Johnston’s
attorneys signed a document entitled “Rules of
Mediation.” Id. Paragraph 16 of that document
provided:
Exclusion of Liability. The Mediator is not a
necessary or proper party in judicial proceedings
related to the mediation. Neither Mediator nor
any law firm employing Mediator shall be liable
to any party or their attorney for any act or

4
omission in connection with any mediation
conducted under these Rules.
Id.
The mediation led to a compromise between Meigs
and Johnston, which was memorialized in a mediated
settlement agreement (“MSA”) signed by all parties
who attended the mediation and their attorneys. Id.
Approximately four days after the MSA was signed,
Meigs contacted Zucker and told him she wanted to add
terms to the MSA. After Zucker explained that Meigs
could not add terms to the agreement, Meigs alleged
that she did not willingly enter into the MSA. Id.
Meigs subsequently sued Respondents alleging that
Meigs and Bergman formed an attorney-client
relationship, and Bergman was responsible for
damages caused to Meigs as a result of the mediation.
Id. Meigs alleged causes of action for negligence,
negligent misrepresentation, breach of fiduciary duty,
fraud, violations of the Texas Deceptive Trade
Practices Act (“DTPA”), and breach of contract. Id.
Specifically, Meigs alleged that she was verbally
abused and intimidated during the mediation and did
not willingly enter into the MSA. Id. Meigs alleged that
she had been provided alcohol during the mediation,
which impaired her ability to understand the
settlement to which she agreed. Id.
Respondents answered Meigs’s suit, asserting a
general denial and the affirmative defenses of estoppel,
quasi estoppel, judicial estoppel, and waiver. Id. at *2.
Bergman further asserted a counterclaim for breach of
contract, alleging that Meigs breached the mediation

5
agreement, which provided that she had agreed not to
involve Bergman in any litigation related to the
mediation. Id.
Respondents subsequently filed a combined motion
for traditional and no-evidence summary judgment
under the Texas Rules of Civil Procedure. Id. Bergman
alleged entitlement to traditional summary judgment
on the following grounds:
• The doctrine of estoppel by contract
precluded Meigs from asserting any cause of
action against Bergman;
• Bergman was entitled to summary judgment
on all causes of action grounded on an
attorney-client relationship because Meigs
did not have an attorney-client relationship
with Bergman.
Id.
As grounds for no-evidence summary judgment,
Bergman alleged that Meigs produced no evidence to
support any of her causes of action. Id. Bergman’s
evidence included, among other things, Zucker’s
memorandum written to Meigs in response to the suit
she filed against Respondents, which provided in part:
When you and I were interacting, you appeared
to have every bit of your faculties, were speaking
intelligently and were providing substantial
input as to how to structure the deal.
***

6
The first time you raised any issue with the
Mediated Settlement Agreement was November
4, four days after the mediation concluded.
During that email, you did not mention
impairment. You asserted that you wanted to
add some terms to the settlement agreement.
***
But, from my standpoint, it appears that you
reflected on the settlement agreement for
several days, decided you wanted to add some
terms in your favor, and when told that you
couldn’t add to it, began looking for excuses to
back out of the deal, which grew over several
days.
***
As for me, I am not willing to offer evidence or
advocate a position that I not only believe is not
supported by facts or law, but that I believe
would be fabricating support for a defense to the
agreement you made. If you wish to repudiate
the contract, Bohreer & Zucker will need to file
a motion to withdraw as counsel.
Id.
Meigs responded and objected to Respondents’
evidence; she argued that Zucker did not properly
represent her during the mediation (she sued Zucker in
a separate suit) and, among other things, that she was
impaired during the mediation because Johnston’s
attorney bought and served alcohol to her during the
mediation. Id. at *3. Meigs admitted, however, that she

7
had taken Xanax the day of the mediation “out of fear
of seeing Johnston.” Id.
Regarding alcohol consumption during the
mediation, the record reflected that Meigs and
Johnston asked for alcoholic drinks, which Johnston’s
attorney provided. Id. Meigs alleged that Johnston may
have placed a drug in her drink. Id. Respondents
averred that Bergman did not condone the drinking of
alcohol at any mediation and asked the parties to
refrain from drinking until the mediation was
complete, and also averred that Meigs and Johnston
complied with this request and refrained from drinking
until completion of the mediation. Id.
The trial court held a non-evidentiary hearing on
Respondents’ motion for summary judgment. Id. When
the hearing began, Meigs appeared pro se. Id. The trial
court advised Meigs about the hazards of representing
herself and gave her an opportunity to hire counsel. Id.
The hearing resumed after Meigs obtained counsel. Id.
The trial court granted Respondents’ summary
judgment without specifying the grounds and ordered
that Meigs take nothing on all claims. Id. Bergman
subsequently nonsuited his counterclaims. Id.
B. Court of Appeals’ Disposition
As stated, Meigs sued Respondents alleging
negligence, negligent misrepresentation, breach of
fiduciary duty, fraud, violations of the Texas Deceptive
Trade Practices Act and breach of contract. Meigs, 2020
WL 6041772, *4. Respondents’ motion for summary
judgment alleged, inter alia, that Meigs and Bergman
had not formed an attorney-client relationship, and

8
raised several affirmative defenses, including estoppel
by contract. Id.
Respondents asserted, under Texas law, the defense
of estoppel by contract because the rules of mediation,
signed by all parties’ attorneys, provided that the
mediator is not a proper party in judicial proceedings
related to mediation and shall not be liable to any
party or their attorney for any act or omission in
connection with the mediation. Id.
Respondents also asserted that estoppel by contract
precluded Meigs from suing Bergman for any act or
omission occurring during the mediation. Id. In
response, Meigs objected to all references to estoppel,
and objected to Respondents’ claims for estoppel
because the contract between Meigs and Bergman was
a contract for services, and the claim of estoppel does
not apply “in a condition of premeditated fraudulent
inducement to contract at mediation.” Id.
On appeal, Meigs argued the trial court erred in
granting summary judgment because she produced
sufficient proof to raise a genuine issue of material fact
regarding her negligence and negligent
misrepresentation claims. Id. Meigs failed to challenge
the grant of summary judgment on her remaining
causes of action or Respondents’ assertion that all
Meigs’s causes of action failed because of Respondents’
affirmative defense of estoppel. Id.
The court of appeals relied on and applied
well-established Texas law holding that when the order
granting summary judgment does not specify the
grounds upon which the trial court relied, as it did in

9
this case, it must affirm if an appellant fails to
challenge all grounds on which summary judgment
may have been granted. Id. Because Meigs failed to
challenge on appeal Respondents’ affirmative defense
of estoppel by contract, Meigs failed to challenge all
independent bases or grounds that, if meritorious,
could have supported the summary judgment
dismissing her claims. Id. For that reason, the court of
appeals was bound to and did affirm the summary
judgment. Id.
II. Supreme Court of Texas Proceedings
Meigs filed a petition for review in the Supreme
Court of Texas, seeking review of the court of appeals’
disposition of her appeal.1 In that court, Meigs also did
not address or challenge the basis or law relied on by
the court of appeals to affirm the summary judgment
dismissing her lawsuit—that Meigs failed to challenge
all independent bases or grounds that could support
the summary judgment.
Instead, Meigs listed twelve “Issues Presented,”
most addressing grievances, allegations, or claims
never adjudicated by the trial court or the court of
appeals because Meigs never included them as a basis
for any claim asserted in her lawsuit. For example,
Meigs asserted that (1) Bergman and the trial judge

1

Meigs’ Petition for Review is not reported, but can be found on
the Texas Supreme Court’s website, Docket No. 20-0949. See
https://search.txcourts.gov/SearchMedia.aspx?MediaVersionID=
c3146916-57ba-464e-9be6-18c930844e11&coa=cossup&DT=
BRIEFS&MediaID=eaff3539-df5c-4412-913b-06cefcc2fc89 (last
visited Oct. 6, 2021).

10
who dismissed her claims, the Hon. Brent Gamble,
were engaged in quid pro quo and “serious obstruction
of justice,” demonstrated by Gamble’s grant of
Bergman’s motion after Gamble lost the election,
needed an income, and now mediates in the same
building as Bergman; (2) a syndicate of legal
professionals called the “Fraternity,” which included
Bergman and Gamble, gave the appearance of bias that
prevented her rights by “the constitution to a jury and
fair treatment of my claims” and “prohibited me and
prohibit the public from fair representation and full
process to a trial by jury thus denying my
constitutional rights”; (3) court clerks enhanced bias
against her by manipulating filings when she had not
paid a fee for those filings; (4) Bergman manipulated
her when he knew the MSA agreement was void on
Meigs’s revocation due to omission of Texas Family
Code § 6.602; (5) that “lack of accountability [of
attorneys representing parties sued by a pro se party]
secondary to judicial immunity allows the public to be
abused as I was. Constitutional violation”; (6) error in
trial court leniency because Meigs was pro se and
obtained her attorney near the date of the hearing, and
leniency was denied because Gamble and Bergman now
mediate together; (7) court corruption in Harris County
and Texas courts, “leading to consistent and appearing
heightened violation of the rights of the people under
the Constitution, violation of constitutional rights due
to bias in court and court corruption”; and (8) other
alleged claims filed against Bergman arising out of
other mediations. (Pet. Rev., pp. 1-7).
As to the propriety of affirmance, Meigs asserted
nothing. (See Pet. Rev., pp. 1-18). She alleged error by

11
Gamble in failing to consider Meigs’ evidence when
ruling on the summary judgment and in Gamble’s
treatment of Meigs’s counsel during argument. (Pet.
Rev., pp. 1-7). But, she argued only that a genuine
issue of material fact precluded summary judgment on
her negligence and negligent misrepresentation claims.
(Pet. Rev., pp. 12-18).
Without requesting a response to Meigs’s petition,
the Texas Supreme Court denied review and later
denied Meigs’s motion for rehearing. (Apx. A, B).
REASONS FOR DENYING THE PETITION
I.

This Court Has No Jurisdiction

This Court has no jurisdiction to consider Meigs’s
questions presented because they have not been raised
or adjudicated by the Texas courts.
With “very rare exceptions,” this Court has adhered
to the rule in reviewing state court judgments under 28
U.S.C. § 1257 that it will not consider a petitioner’s
federal claim unless it was either addressed by, or
properly presented to, the state court that rendered the
decision it has been asked to review. Adams v.
Robertson, 520 U.S. 83, 86 (1997). When the highest
state court is silent on a federal question before the
Court, it assumes that the issue was not properly
presented and the aggrieved party bears the burden of
defeating this assumption, by demonstrating that the
state court had “a fair opportunity to address the
federal question that is sought to be presented here.”
Id. at 86-87 (quoting Webb v. Webb, 451 U.S. 493, 501
(1981)).

12
A petitioner may satisfy this burden by establishing
that the claim was raised “at the time and in the
manner required by the state law,”2 or by persuading
the Court that the state procedural requirements could
not serve as an independent and adequate state-law
ground for the state court’s judgment.3 In other cases,
the Court has described a petitioner’s burden as
involving the need to demonstrate that it presented the
particular claim at issue here with “fair precision and
in due time.”4
Texas law requires a statement of Issues Presented
be included in a petition for review when seeking
review of a court of appeals’ final judgment:
The petition must state concisely all issues or
points presented for review. The statement of an
issue or point will be treated as covering every
subsidiary question that is fairly included. If the
matter complained of originated in the trial
court, it should have been preserved for
appellate review in the trial court and assigned
as error in the court of appeals.

2

Id. (citing Bankers Life & Cas. Co. v. Crenshaw, 486 U.S. 71,
77–78 (1988) (quoting Webb, 451 U.S. at 501)); see, e.g., Exxon
Corp. v. Eagerton, 462 U.S. 176, 181, n. 3 (1983); Beck v.
Washington, 369 U.S. 541, 549– 54 (1962).
3

4

Id. (citing Hathorn v. Lovorn, 457 U.S. 255, 262–265 (1982)).

Id. (quoting New York ex rel. Bryant v. Zimmerman, 278 U.S. 63,
67 (1928); PruneYard Shopping Center v. Robins, 447 U.S. 74, 85,
n. 9 (1980)).

13
TEX. R. APP. P. 53.2(f). Without preservation of an issue
for appellate review in the trial court and assignment
of error in the court of appeals, the Texas Supreme
Court will not review the issues presented. See
Unifund CCR Partners v. Weaver, 262 S.W.3d 796, 797
(Tex. 2008) (per curiam) (party who fails to expressly
present to trial court arguments in any written
response in opposition to motion for summary
judgment waives right to raise any such arguments
postjudgment); In re L.M.I., 119 S.W.3d 707, 710-11
(Tex. 2003) (party waived constitutional error [alleged
denial of due process] by failing to plead it, argue it to
trial court, or raise it in any postjudgment motion). See
also In re L.G., 596 S.W.3d 778, 780 (Tex. 2020)
(because father raised issue for first time in Texas
Supreme Court, without raising it in court of appeals,
court held issue waived and did not address it);
Alexander v. Turtur & Assocs., Inc., 146 S.W.3d 113,
122 (Tex. 2004) (party waived argument that four-year
fraud statute of limitations should have applied, by
failing to make argument in court of appeals).
Within her Petition for Writ of Certiorari, Meigs
asserts two general questions presented for review,
neither of which has been addressed by the Texas
Supreme Court or the prior lower courts in this
litigation. The questions address (1) whether mediation
should be conducted under the same guidelines as
normal courtroom processes and whether mediation
participants and mediators should be held liable for
allowing abuse and manipulation of a vulnerable
victim; and (2) whether individuals should be allowed
to represent themselves against licensed attorneys.
(Pet. Cert., p. I).

14
And, to the extent Meigs relies on alleged violations
of 42 U.S.C. § 1983 or federal due process claims to
form a basis for review under these issues or, by
themselves, to create a basis for jurisdiction (as she
asserts in her Petition for Writ of Certiorari), she also
failed to raise those issues before the Texas Supreme
Court (or the lower courts). The Texas Supreme Court
denied Meigs’s request for review without requesting
briefs or even a response to Meigs’s petition. As to all
these issues, Meigs does not address here why the
failure to comply with the Texas Rule and common law
would not be an adequate and independent ground for
the Texas Supreme Court to disregard these
claims/issues. Even if Meigs had presented the issues
to that court, the court’s silence leads to the
assumption that Meigs’s issues presented there were
not properly presented. See Adams, 520 U.S. at 86-87.
Indeed, even if Meigs presents a federal question here,
the Texas Supreme Court never had a fair opportunity
to address the federal question Meigs seeks to present
here. See id.
In all, Meigs never asserted within her trial court
original lawsuit pleading any claim that the mediation
and resulting MSA should have been set aside because
the mediation was not conducted under “normal
courtroom guidelines”—she merely asserted tort claims
based on alleged improper mediator conduct. Meigs,
2020 WL 6041772, at *1-*4. Nor did Meigs raise any
complaints regarding the propriety of allowing a pro-se
litigant to proceed against highly trained, educated,
skilled or licensed attorneys. See id.

15
Meigs also never asserted in the trial court any
constitutional or violation of 42 U.S.C. § 1983 or
violations of due process or other rights provided in
either the Texas or United States Constitutions based
on how mediation should be conducted or when and
how a pro-se litigant may proceed in representing
herself to guarantee safeguards under the law. See id.
Thus, Meigs never raised or assigned any error based
on any of these claims or issues within her appeal in
the Texas intermediate court of appeals, as the court of
appeals’ Opinion demonstrates. See id.
Even giving a liberal interpretation to Meigs’s
petition for review filed in the Texas Supreme Court,
she failed to raise these issues there. Meigs alleged in
her statement of the nature of the case there that
“[t]his is a negligent misrepresentation and negligence
suit arising from a mediation which occurred on
October 30, 2015 and continued thereafter with
possible conspiracy and fraud occurring prior to
mediation.” (Pet. Rev., p. vii). She argued that the trial
court’s dismissal of her negligence and negligent
misrepresentation claims was improper and that the
Texas Supreme Court should reverse and remand the
case to the lower court for trial and should refer the
matter to the FBI or some other law enforcement to
“protect the public from what I endured.” (Pet. Rev.,
pp.12-18). Meigs never addressed the court of appeals’
actual reason for disposition—failure to challenge all
grounds raised in the summary judgment—or whether
that adjudication was proper. (Pet. Rev., pp. 1-18).

16
Her Texas Supreme Court petition for review
included vague references to constitutional rights never
adjudicated in the trial court or the court of appeals:
2. Upon contacting the court clerk with a
question on setting up an oral hearing, the clerk
asked me if I knew who I was suing. Having
filed enough pleadings to battle the style section,
I carefully said, “yes”. The court clerk then told
me that I did not know who I was suing. She
proceeded to state that I was suing the
“Fraternity” and that I will lose and everyone
loses who goes against the “Fraternity” as they
are powerful. The clerk then stated that the
“Fraternity” is composed of lawyers and judges
throughout the courts and they protect one
another, and will do whatever is necessary to
ensure that protection. Since one of the
individuals in my lawsuits was Bergman, the
then Sitting Chair of the Texas State Bar on
ADR, I surmised that Bergman and his position
with the “Fraternity” as told me hence explained
why the State Bar and Mediation Credentialing
Association did nothing regarding the
horrendous abuse and gross negligence and
fraud that I experienced. This also explains the
bizarre hearsay descriptions of Zucker in the
memorandum so often referred to by the
opposing sides, Zucker and Bergman in my
lawsuits against them. This fear of the
“Fraternity” was confirmed during my search for
a lawyer with lawyer #12 telling me that anyone
who went against Bergman would be
“blacklisted” meaning that they would lose

17
before the judges and all of their clients would
lose as well. Although decent attorneys exist,
they cannot go against this syndicate of lawyers
and judges or they will fail for their clients.
Hence, I could not find a lawyer to represent me
which left me incapable of obtaining expert
witnesses until I found Jahani a week or so
before Gamble dismissed my claim by approving
summary judgment. Appearance of bias
prevented my rights by the constitution to a jury
and fair treatment of my claims. The multiple
manipulations of motions and laws help the
“Fraternity” to protect itself as seen in my
situation. Thus, this syndicate of legal
professionals called the “Fraternity” consisting
of attorneys, mediators, and judges located
throughout various levels of court in Texas
prohibited me and prohibit the public from fair
representation and full process to a trial by jury
thus denying my constitutional rights. This
collusion and conspiracy can be more easily
followed through a timeline of events as I
discovered when I finally received all of my case
files after three requests with each stating that
I received all case files. To present that here
would blow the word count. (Pet. Rev., pp. 2-3
[emphasis in original])
3. Besides the ability to abuse the public
through court corruption, court clerks can
enhance bias in court and through summary
judgment dismissal by manipulating filings to
benefit one side over the other and enhance
deception and manipulation. Court clerks hold

18
full power over the uploading of court
documents, the manner in which they are
uploaded which could be haphazard, and the
time recorded on those documents. As pro-se, I
became experienced in the court clerks holding
my documents for missing payments or
something else. In a terrible sense of panic after
receiving the email from the clerk the next day,
the clerk reassured me that she could hold the
document for seven or more days. I explained
that I was at the time deadline and that would
show I missed the filing. The clerk explained
that she could hold the filing as long as she
wanted because once the clerk released the
document onto the system docket, the filing will
retain the original date submitted with errors
and the email will go out will the original date
submitted with errors. Hence, the court clerk
can hold a document twenty days past time to
respond and no one would ever know once it
becomes posted as both timestamp controlled by
the clerk would show the original date on both
document upload on docket and on the email
submitted. Holding of a document could allow a
summary judgment to not be seen and
responded. In the case against Zucker, I
responded on time to all documents except the
last one which I did not see and which
McFarland approved a summary judgment
dismissal for not responding. McFarland held up
the docket to me and smiled showing the
timeline of the original filing. Such court clerk
issues have been noted before in Harris County
and in California where California clerks

19
actually took money to change DWIs and all.
These are clear violations of which I need more
time to look up and various constitutional
violations which I am sure you are all aware.
These actions also indicate that Zucker too
appears to be part of the “Fraternity” and this
court as well as Gamble were willing to
manipulate situations with the expert
knowledge of law that they hold to the benefit of
their own. (Pet. Rev., pp. 3-4).
***
8. The court failed to acknowledge the bias and
loss of constitutional rights in using the inability
to access legal representatives and legal expert
witness due to fear of Edward Trey Bergman
and the “Fraternity”, and allowing such
manipulation against Petitioner as a means to
protect Bergman, the fraternity, by allowing
summary judgment as a violation against the
constitutional rights. A prose will always lose in
a legal malpractice case due to the enhanced
abilities of lawyers to manipulate the court
system to protect themselves. The lack of
accountability secondary to judicial immunity
allows the public to be abused as I was.
Constitutional violation. (Pet. Rev., pp. 5-6).
***
11. Court corruption continues to stain Harris
County and Texas seen in the strong response
and
most
terrible
stories
@WomenAgainstLegalAbuse a place for public

20
protection and education. Please note that
thousands in Texas are or have been affected by
court corruption leading to consistent and
appearing heightened violation of the rights of
the people under the Constitution, violation of
constitutional rights due to bias in court and
court corruption. (Pet. Rev., p. 7).
Having failed to raise these issues in the trial court
and assign error to them in the court of appeals, the
Texas Supreme Court acted well within the law in
denying Meigs’s Petition for Review and motion for
rehearing. Weaver, 262 S.W.3d at 797; L.M.I., 119
S.W.3d at 710-11. See also In re L.G., 596 S.W.3d at
780; Alexander, 146 S.W.3d at 122; see TEX. R. APP. P.
53.2(f). Nonetheless, Meigs’s passing references to
constitutional limitations in her petition for review
failed to cite the Federal Constitution, 42 U.S.C. § 1983
or any cases relying on 42 U.S.C. § 1983, or the Fifth,
Sixth, Seventh, or Fourteenth Amendments. (Pet. Rev.,
pp. 1-18). The references could just as easily have
referenced the due process guarantee or constitutional
rights included in the Texas Constitution. See TEX.
CONST., art. I, §§ Art. I, §§ 3, 8, 13, 15, 19. Thus,
Meigs cannot meet this Court’s minimal requirement
that, for jurisdiction to attach, it must be clear from the
record that Petitioner presented a federal claim to the
Texas Supreme Court. Adams, 520 U.S. at 89; Webb,
451 U.S. at 496–97, 501; see 28 U.S.C. § 1257(a).
This Court has explained, it would be “unseemly in
our dual system of government” to disturb the finality
of state judgments on a federal ground that the state
court did not have occasion to consider. Adams, 520

21
U.S. at 90 (citing Webb, 451 U.S. at 500). The rule
affords state courts “an opportunity to consider the
constitutionality of the actions of state officials, and,
equally important, proposed changes” that could
obviate any challenges to state action in federal court.
Id. The Texas Supreme Court has an undeniable
interest in having the opportunity to determine in the
first instance whether Harris County courts, court
staff, judges, and attorneys violate a pro se litigant’s
rights in adjudicating claims based on Texas rules
providing for disposition on summary judgment and
Texas law requiring—based on the failure to challenge
all grounds supporting that disposition—affirmance of
that disposition. See id. Otherwise, the Texas Supreme
Court cannot determine whether it needs to exercise its
power to amend its rules or to modify the common law
to avoid potential constitutional challenges. See
Adams, 520 U.S. at 90. Meigs did not raise her issues
asserted here either in the trial court or the
intermediate appellate court; any attempt to raise
them in the Texas Supreme Court for the first time
absolutely provided that court with a proper legal basis
to deny her petition and motion for rehearing.
As a result, jurisdiction does not lie here. This Court
should deny Meigs’s Petition for Writ of Certiorari.
II.

Misstatements of Fact and Law Bear on
Jurisdiction and the Issues that Could
Potentially be Considered

Pursuant to Rule 15, Respondents also address
various misstatements of fact and law contained in the
Petition for Writ of Certiorari that bear on this Court’s

22
jurisdiction, as well as the issues that could potentially
be reviewed even if jurisdiction existed.
A. Respondents Challenge the Bases Meigs’s
Asserts for Jurisdiction
As discussed above, no jurisdiction lies here, where
Meigs never claimed or asserted the Questions
Presented here, where no lower court adjudicated those
questions and issues, and where Meigs never asserted
or received adjudications of claimed violations of 42
U.S.C. § 1983 or federal Constitutional guarantees in
the lower courts, including the Texas Supreme Court.
Thus, Meigs’s assertions of the bases for jurisdiction
are misstatements of the law and, frankly,
misstatements of fact because these issues never have
previously been raised. This is a court of final review,
not first review, and even if the issues are compelling
or extraordinary, which they are not, they must have
been adjudicated first by the Texas courts and they
were not. See 28 U.S.C. § 1257(a).
B. No Constitutional or Statutory Provision
Involved; Federal Rule of Civil Procedure
8(a)(2) Inapplicable
Respondents do not agree that any Constitutional
Amendment, guaranteed constitutional or fundamental
right or right of due process, or 42 U.S.C § 1983 are
involved or will be involved in examining the merits of
the propriety of summary judgment dismissal in this
ordinary state-law tort claim. (Pet. Cert., p. 1).
Meigs asserts Federal Rule of Civil Procedure
8(a)(2) is also involved here. (Pet. Cert., p. 1). She filed
this lawsuit Texas state court, and no federal rule of

23
civil procedure, including Rule 8(a)(2), has been
invoked, interpreted, or applies here.5
That federal courts are required to give liberal
construction to pro se pleadings is well established.
Kaba v. Stepp, 458 F.3d 678, 687 (7th Cir.2006).
However, it is also well established that pro se litigants
are not excused from compliance with procedural rules.
See McNeil v. United States, 508 U.S. 106, 113 (1993)
(noting that this Court has “never suggested that
procedural rules in ordinary civil litigation should be
interpreted so as to excuse mistakes by those who
proceed without counsel”).
Meigs further cites to 18 U.S.C. §§ 1001, 1018,
which are criminal statutes. (Pet. Cert., pp. 1, 3, 4).
This case has never involved alleged violation of federal
criminal statutes by anyone, much less Respondents,
and they are irrelevant even if Meigs’s Questions
Presented could be considered.
C. Other Misstatements of Fact and Law
Bear on Issues that Potentially Could be
Considered
1. Misstatements of Law
Meigs has never argued previously and no lower
court has adjudicated, the following issues:

5

Meigs’s reference to a “Petition for Writ of Certiorari to the
United States Court of Appeals for the Fifth Circuit” on her cover
is likewise incorrect; this case was filed in and adjudicated by
Texas state courts.

24
1. Whether United States v. Goldberg, 406 F.3d 891
has any application here. This is not a criminal case
involving fraud against a vulnerable victim, and such
issues have never been previously presented or fairly
litigated in the lower state courts. (Pet. Cert., p. I).
2. Whether Haines v. Kerner, 404 U.S. 519 (1972)
provides any support for this Court’s jurisdiction. (Pet.
Cert., p. 1).
3. Whether Texas Rules of Civil Procedure
governing summary judgment and review of grants of
summary judgment constitute a procedural default and
abuse of discretion under any authority, including
Mathews v. Eldridge, 424 U.S. 319 (1976), or
Preschooler II v. Clark Cty. Sch. Bd. of Trs., 479 F.3d
1175, 1183 (9th Cir. 2007). (Pet. Cert., p. 2). This issue
has not been previously presented or fairly adjudicated
in the lower state courts.
4. Whether there has been any alleged violation of
42 U.S.C. § 1983, or of any federal Constitutional
violations based on the trial judge’s actions in granting
summary judgment or Bergman’s actions in handling
the underlying mediation. (Pet. Cert., p. 2-4). This
issue has not been previously presented or fairly
adjudicated in the lower state courts.
5. Whether any lawsuit/claims against Bergman
are relevant or formed any basis for adjudication of the
summary judgment against Meigs. (Pet. Cert., p. 4).
6. Any of the list of questions numbered 1-10
contained in Meigs’s conclusion. (Pet. Cert., p. 6). None
of these questions/issues have been previously

25
presented or fairly adjudicated in the lower state
courts.
Next, this case does not involve a dismissal based
on a technicality. (Pet. Cert., p. 5). In the court of
appeals, Meigs and her appellate counsel, within her
appeal, failed to address all grounds the trial court
could have reasonably relied on to grant summary
judgment, which required the court of appeals to affirm
the summary judgment. Meigs, 2020 WL 6041772, *4.
Meigs failed to challenge this rule in the Texas
Supreme Court, and she cannot claim here for the first
time that such requirements violate due process. (Pet.
Rev., pp. 1-18). Further, Meigs failed to raise any
appellate challenge to the grant of summary judgment
based on alleged discovery that she still needed (Pet.
Cert, p. 5). Id., 2020 WL 6041772, *1-*4.
Accordingly, none of these issues are preserved for
review by this Court.
2. Misstatements of Fact
Additionally, Meigs makes numerous assertions of
fact that are not borne out by the Record in the lower
court proceedings and constitute misstatements of fact
here, including:
1. Any assertion that Meigs was abused or
manipulated by Bergman, that Meigs is a
vulnerable victim, or that Bergman knew he was
manipulating or taking advantage of Meigs, or
assertion that United States v. Goldberg, 406
F.3d 491(7th Cir. 2005) has any application to
the facts here. (Pet. Cert., p.i).

26
2. Any assertions (actual or implied) that
Respondent served as Meigs’s lawyer or gave
legal advice in any respect. Rather, Respondents
never represented Meigs; Bergman was a
mediator and Zucker was Meigs’s attorney at the
mediation. (Pet. Cert., p. 2).
3. Respondents wrote no memorandum; the
memorandum was written by Zucker, Meigs’s
attorney. (Pet. Cert., p. 2).
4. Respondents never represented Meigs and owed
no duties to advise Meigs what impact, if any,
Texas Family Code § 6.602 had on the MSA.
(Pet. Cert., p. 3).
5. While summary judgment was filed to enforce
the MSA in Meigs’s divorce lawsuit, no ruling
was ever obtained on its enforcement. (Pet.
Cert., p. 4).
6. Respondents deny Meigs’s characterizations of
the “purpose of the mediation” at issue, and
these characterizations are not supported by the
Record. (Pet. Cert., p. 4).
7. Nothing supports that the Texas courts failed to
consider Meigs’s authority. (Id.).
8. Meigs has been represented by counsel at
various stages of this lawsuit. First, she was
represented by Zucker at the mediation. She was
represented by Texas attorney Cheryl Jahani in
the trial court at the time of the summary
judgment hearing, grant of summary judgment,
post-judgment motions presented to a new judge

27
seeking a new trial, and in the Fourteenth Court
of Appeals. Meigs, 2020 WL 6041772 at *1.
Meigs’s status as a pro se litigant at the time
she filed her petition for review in the Texas
Supreme Court and her Petition for Writ of
Certiorari in this Court has no bearing on the
claims she pleaded in her lawsuit, the claims
adjudicated in the summary judgment, or the
issues reviewed on appeal from that summary
judgment.
9. Any assertion that Respondents’ affirmative
defenses asserted in the lower state courts,
including estoppel, were asserted improperly,
with nefarious intent, or to “derail potentially
meritorious claims,” as discussed in Ryan Ops.
G.P. v. Santiem-Midwest Lumber Co., 81 F.3d
356, 365 (3rd Cir. 1996).
Finally, Meigs’s Appendix A to her Petition for Writ
of Certiorari, titled “Brief of Appellant” materially
misstates and misrepresents what Meigs’s actually
filed in the Fourteenth Court of Appeals. A review of
Meigs’s Brief of Appellant,6 shows that these pages
were not included in that Brief.

6

Meigs’s Brief of Appellant is available at No. 14-19-00167-CV,
2019 WL 5214232 (Tex.App.-Hous. (14 Dist.)).

28
3. This Case Does Not Meet the
Considerations Governing Review on
Writ of Certiorari
Additionally, no issue Meigs has asserted is proper
for this Court’s potential review because this case does
not meet the standards for considerations governing
review on writ of certiorari found in this Court’s Rule
10. While the Supreme Court of Texas, a court of last
resort, denied Meigs’s petition for review and motion
for rehearing of that denial, it did not decide an
important federal question in a way that conflicts with
the decision of another state court of last resort or of a
United States Court of Appeals. Rule 10(b). Similarly,
the Texas Supreme Court did not decide an important
question of federal law that has not been, but should
be, settled by this Court, or decided an important
federal question in a way that conflicts with relevant
decisions of this Court. Rule 10(c).
The Texas Supreme Court simply denied review of
the intermediate court of appeals’
decision—particularly apt when Meigs never
challenged the basis for that decision in her petition for
review. She presented no federal question there;
likewise, she presented no important question of
federal law that has not been, but should be, settled by
this Court. Rather, Meigs complained that the
summary judgment was wrong because she created
genuine issues of material fact on two of her numerous
claims (negligence and negligent misrepresentation).
Even if she had complained about the court of appeals’
disposition based on her failure to challenge all
grounds that could have supported summary judgment,

29
any alleged misapplication of a properly stated rule of
Texas law is insufficient to support discretionary
review here. See Rule 10(b), (c).
III.

This is Not the Case to Consider the
Constitutional Ramifications of Mediation
Procedure or the Difficulties of a Pro-Se
Litigant

Even if this case presents important federal issues,
it is not the right case to announce sea changes in state
alternative dispute resolution practices or the rights of
pro se litigants.
Examination of the court of appeals’ opinion below
demonstrates that Meigs and her counsel failed to
follow Texas law, which required a challenge to each
independent ground upon which the summary
judgment could have been granted. Meigs, 2020 WL
6041772, *1-*4. Then, in the Texas Supreme Court,
Meigs failed to comply with Texas Rule of Appellate
Procedure 53.2(f), to present her issues in the trial
court, to preserve them for appellate review, and to
assign error based on them in the court of appeals. See
TEX. R. APP. P. 53.2(f). The record confirms she did not.
Pro se litigants are not excused from compliance with
procedural rules in civil litigation. See McNeil, 508 U.S.
106 at 113. Without Meigs’s having properly presented
issues that were fairly adjudicated by the Texas
Supreme Court, this is not the proper case for this
Court to effect a change in Texas mediation procedure
or to address the ability of a Texas pro-se litigant to
challenge an adverse ruling that has not been
preserved for appellate review.

30
CONCLUSION
For the foregoing reasons, the Court should deny
the Petition for Writ of Certiorari.

31
Respectfully submitted
DIANA L. FAUST
DAVID WAYNE CLAWATER
Counsel of Record
SCOTT, CLAWATER &
MICHELLE E. ROBBERSON HOUSTON, L.L.P.
COOPER & SCULLY, P.C. 2727 Allen Parkway
900 Jackson Street
Houston, Texas 77019-2115
Suite 100
(713) 650-6600
Dallas, Texas 75202
wclawater@schlawyers.com
(214) 712-9500
diana.faust@cooperscullly.com
michelle.robberson@cooperscully.com
Counsel for Respondents
Trey Bergman and Bergman ADR Group
October 8, 2021

APPENDIX

i
APPENDIX
TABLE OF CONTENTS
Appendix A Denial of Petitioner’s Motion for
Rehearing in the Supreme Court of
Texas
(April 9, 2021) . . . . . . . . . . . . . . . . App. 1
Appendix B Denial of Petitioner’s Petition for
Review in the Supreme Court of Texas
(January 15, 2021) . . . . . . . . . . . . App. 2
Appendix C Memorandum
Opinion
of the
Fourteenth District Court of Appeals,
Houston, Texas
(October 13, 2020) . . . . . . . . . . . . . App. 3
Appendix D Judgment of the Fourteenth District
Court of Appeals, Houston, Texas
(October 13, 2020) . . . . . . . . . . . . App. 14
Appendix E F i na l
Order
on D efendants’
Traditional and No-Evidence Motion
for Summary Judgment by the 270th
District Court, Harris County, Texas
(December 4, 2018) . . . . . . . . . . . App. 16

App. 1

APPENDIX A
IN THE SUPREME COURT OF TEXAS
No. 20-0949
[Filed April 9, 2021]
____________________________________
WENDY MARIE MEIGS,
)
Petitioner,
)
)
v.
)
)
TREY BERGMAN AND BERGMAN )
ADR GROUP,
)
Respondents.
)
____________________________________)
On Petition for Review from the
Fourteenth District Court of Appeals at Houston, Texas
No. 14-19-00167-CV
_________________________________________________
April 9, 2021
Today the Supreme Court of Texas denied the
motion for rehearing of the above-referenced petition
for review.

App. 2

APPENDIX B
IN THE SUPREME COURT OF TEXAS
No. 20-0949
[Filed January 15, 2021]
____________________________________
WENDY MARIE MEIGS,
)
Petitioner,
)
)
v.
)
)
TREY BERGMAN AND BERGMAN )
ADR GROUP,
)
Respondents.
)
____________________________________)
On Petition for Review from the
Fourteenth District Court of Appeals at Houston, Texas
No. 14-19-00167-CV
_________________________________________________
January 15, 2021
Today the Supreme Court of Texas denied the
petition for review in the above-referenced matter.

App. 3

APPENDIX C
IN THE FOURTEENTH COURT OF APPEALS
No. 14-19-00167-CV
[Filed October 13, 2020]
____________________________________
WENDY MARIE MEIGS,
)
Appellant,
)
)
v.
)
)
TREY BERGMAN AND BERGMAN )
ADR GROUP,
)
Appelles.
)
____________________________________)
On Appeal from the 270th District Court
Harris County, Texas
Trial Court Cause No. 2017-73032
_________________________________________________
Affirmed and Memorandum Opinion filed October 13,
2020.
MEMORANDUM OPINION
Appellant Wendy Meigs challenges the summary
judgment in favor of Trey Bergman and Bergman ADR
Group (collectively “Bergman”) on Meigs’s negligence
and negligent misrepresentation claims. Meigs asserts
she raised genuine issues of material fact as to
Bergman’s impartiality in a mediation, which precludes

App. 4
summary judgment. Because we determine Meigs
failed to challenge all bases on which summary
judgment could be granted, we affirm.
BACKGROUND
This litigation arose from a mediation in a business
dispute. Appellant Wendy Meigs, her ex-husband Jody
Meigs, and Mike Johnston were shareholders in a
pharmacy-related business called Asyntria, Inc.1
Initially Johnston owned fifty percent of the shares and
the Meigs split the other fifty percent equally. About
the time the Meigs began divorce proceedings,
management disputes arose between the three owners
of Asyntria. Wendy Meigs filed third party claims in
the divorce proceeding against Johnston and others
related to the business dispute. A mediation was
scheduled between the Meigs and Johnston to try to
resolve the litigation. Meigs and her attorney, Todd
Zucker, attended the mediation along with Johnston,
and his attorney, Todd Frankfort. Jody Meigs was
asked to leave before mediation began because he
refused to pay the mediation fee. The mediator was
appellee, Trey Bergman.
Before the mediation began, Meigs and Johnston’s
attorneys signed a document entitled “Rules of
Mediation.” Paragraph 16 of that document provided:
Exclusion of Liability. The Mediator is not a
necessary or proper party in judicial proceedings
related to the mediation. Neither Mediator nor
any law firm employing Mediator shall be liable
1

Wendy and Jody Meigs share a last name; in referencing Wendy
Meigs in this opinion, we will refer to her by her last name.

App. 5
to any party or their attorney for any act or
omission in connection with any mediation
conducted under these Rules.
The mediation led to a compromise between Meigs and
Johnston, which was memorialized in a mediated
settlement agreement (“MSA”) signed by all parties
who attended the mediation and their attorneys.2
Approximately four days after the MSA was signed,
Meigs contacted Zucker, her attorney, and told him she
wanted to add terms to the MSA. After Zucker
explained that Meigs could not add terms to the
agreement, Meigs alleged that she did not willingly
enter into the MSA. Meigs subsequently filed suit
against Bergman alleging that Meigs and Bergman
formed an attorney-client relationship, and Bergman
was responsible for damages caused to Meigs as a
result of the mediation. Meigs alleged causes of action
for negligence, negligent misrepresentation, breach of
fiduciary duty, fraud, violations of the Deceptive Trade
Practices Act (“DTPA”), and breach of contract.
Specifically, Meigs alleged that she was verbally
abused and intimidated during the mediation and did
not willingly enter into the MSA. Meigs alleged that
she had been provided alcohol during the mediation,
which impaired her ability to understand the
settlement to which she agreed.
Bergman answered Meigs’s suit, asserting a general
denial and the affirmative defenses of estoppel, quasi
estoppel, judicial estoppel, and waiver. Bergman
further asserted a counterclaim for breach of contract,
2

Jody Meigs did not sign the MSA.

App. 6
alleging that Meigs breached the mediation agreement,
which provided that she had agreed not to involve
Bergman in any litigation related to the mediation.
Bergman subsequently filed a combined motion for
traditional and no-evidence summary judgment.
Bergman alleged entitlement to traditional summary
judgment on the following grounds:
• The doctrine of estoppel by contract
precluded Meigs from asserting any cause of
action against Bergman;
• Bergman was entitled to summary judgment
on all causes of action grounded on an
attorney-client relationship because Meigs
did not have an attorney-client relationship
with Bergman;
As grounds for no-evidence summary judgment,
Bergman alleged that Meigs produced no evidence to
support any of her causes of action.
Bergman attached several documents to his motion,
including the rules for mediation, signed by Meigs’s
attorney, the mediation sign-in record, signed by
Meigs, the mediation statement to Bergman from
Meigs’s attorney, the MSA, and a memorandum
written to Meigs from Zucker. Zucker’s memorandum
was written to Meigs in response to the suit she filed
against Bergman. The memorandum provided in part:
When you and I were interacting, you appeared
to have every bit of your faculties, were speaking
intelligently and were providing substantial
input as to how to structure the deal.

App. 7
***
The first time you raised any issue with the
Mediated Settlement Agreement was November
4, four days after the mediation concluded.
During that email, you did not mention
impairment. You asserted that you wanted to
add some terms to the settlement agreement.
***
But, from my standpoint, it appears that you
reflected on the settlement agreement for
several days, decided you wanted to add some
terms in your favor, and when told that you
couldn’t add to it, began looking for excuses to
back out of the deal, which grew over several
days.
***
As for me, I am not willing to offer evidence or
advocate a position that I not only believe is not
supported by facts or law, but that I believe
would be fabricating support for a defense to the
agreement you made. If you wish to repudiate
the contract, Bohreer & Zucker will need to file
a motion to withdraw as counsel.
In responding to Bergman’s motion for summary
judgment Meigs objected to the mediation sign-in
record, arguing that Zucker did not properly represent
her during the mediation.3 Meigs objected to the
“Agreement to Mediation” “as an attempt to divert
3

Meigs also sued Zucker and his firm in another action; the record
does not reflect the resolution, if any, of that action.

App. 8
away from the true claims and does nothing more than
attempt to perpetrate the hiding of the omission as was
[sic] before the 2015 mediation and continued through
two more years of litigation.”4 Meigs further asserted
that she was impaired during the mediation because
Johnston’s attorney bought and served alcohol to her
during the mediation. Meigs admitted, however, that
she had taken Xanax the day of the mediation “out of
fear of seeing Johnston.”
With regard to alcohol consumption during the
mediation, the record reflects that Meigs and Johnston
asked for alcoholic drinks, which Johnston’s attorney
provided. Meigs alleged that Johnston may have placed
a drug in her drink. Bergman averred that he did not
condone the drinking of alcohol at any mediation and
asked the parties to refrain from drinking until the
mediation was complete. Bergman also averred that
Meigs and Johnston complied with his request and
refrained from drinking until completion of the
mediation.
Meigs attached documents to her summaryjudgment response reflecting (1) email communications
between Michelle Bohreer and Zucker, Meigs’s
attorneys; (2) a copy of the MSA; (3) internet articles
about “spoofing” email and text messages; (4) a second
amended petition, which did not have a file-stamp and
appears not to have been filed; (5) a document entitled,
“Model Standards of Conduct for Mediators”; and
(6) Meigs’s affidavit stating that she had personal
knowledge of the facts stated in her response.
4

The record contains no rulings by the trial court on Meigs’s
objections to Bergman’s summary judgment evidence.

App. 9
The trial court held a non-evidentiary hearing on
Bergman’s motion for summary judgment. When the
hearing began Meigs appeared pro se. The trial court
advised Meigs about the hazards of representing
herself and gave her an opportunity to hire counsel.
The hearing resumed after Meigs obtained counsel. The
trial court granted Bergman’s summary judgment
without specifying the grounds and ordered that Meigs
take nothing on all claims. Bergman subsequently
nonsuited his counterclaims.
ANALYSIS
In a single issue on appeal Meigs argues the trial
court erred as a matter of law by granting summary
judgment. In two sub-issues Meigs asserts she raised
genuine issues of material fact with regard to her
negligent misrepresentation and negligence causes of
action. On appeal Meigs does not address her causes of
action for breach of fiduciary duty, fraud, violations of
the DTPA, or breach of contract. Moreover, Meigs does
not challenge Bergman’s affirmative defenses of
estoppel and waiver.
I. Standard of review and applicable law
We review a no-evidence summary judgment under
a legal sufficiency standard. King Ranch, Inc. v.
Chapman, 118 S.W.3d 742, 750–51 (Tex. 2003) (“A noevidence summary judgment is essentially a pretrial
directed verdict, and we apply the same legal
sufficiency standard in reviewing a no-evidence
summary judgment as we apply in reviewing a directed
verdict.”). A no-evidence summary judgment will be
sustained when: “(a) there is a complete absence of

App. 10
evidence of a vital fact, (b) the court is barred by rules
of law or of evidence from giving weight to the only
evidence offered to prove a vital fact, (c) the evidence
offered to prove a vital fact is no more than a mere
scintilla, or (d) the evidence establishes conclusively
the opposite of the vital fact.” King Ranch, 118 S.W.3d
at 751 (citing Merrell Dow Pharms. v. Havner, 953
S.W.2d 706, 711 (Tex. 1997)).
We review a trial court’s order granting a
traditional summary judgment de novo. Mid–Century
Ins. Co. v. Ademaj, 243 S.W.3d 618, 621 (Tex. 2007). In
reviewing a grant of summary judgment, we consider
all of the evidence in the light most favorable to the
nonmovant. Goodyear Tire & Rubber Co. v. Mayes, 236
S.W.3d 754, 756 (Tex. 2007). To prevail on a traditional
motion for summary judgment, a movant must prove
entitlement to judgment as a matter of law on the
issues pled and set out in the motion for summary
judgment. Tex. R. Civ. P. 166a(c); Masterson v. Diocese
of Nw. Texas, 422 S.W.3d 594, 607 (Tex. 2013).
If the trial court grants summary judgment without
specifying the grounds, we affirm the judgment if any
of the grounds presented are meritorious. Dow Chem.
Co. v. Francis, 46 S.W.3d 237, 242 (Tex. 2001) (per
curiam). If an appellant does not challenge every
possible ground for summary judgment, we will uphold
the summary judgment on any of the unchallenged
grounds. Durham v. Accardi, 587 S.W.3d 179, 183 (Tex.
App.—Houston [14th Dist.] 2019, no pet.).

App. 11
II. The trial court’s summary judgment must be
affirmed because Meigs did not address all
summary judgment grounds asserted by
Bergman.
Meigs sued Bergman alleging negligence, negligent
misrepresentation, breach of fiduciary duty, fraud,
violations of the DTPA, and breach of contract.
Bergman filed a motion for summary judgment
alleging, inter alia, Meigs and Bergman had not formed
an attorney-client relationship, and raising several
affirmative defenses, including estoppel by contract.
As part of his traditional motion, Bergman asserted
the defense of estoppel by contract because the rules of
mediation, signed by all parties’ attorneys, provided
that the mediator is not a proper party in judicial
proceedings related to mediation and shall not be liable
to any party or their attorney for any act or omission in
connection with the mediation.
Bergman asserted that Meigs was precluded by the
doctrine of estoppel by contract from bringing any
action against Bergman for any act or omission
occurring during the mediation. In responding to
Bergman’s assertion that Meigs failed to raise a fact
issue with regard to Bergman’s estoppel-by-contract
defense, Meigs objected to all references to estoppel,
and objected to Bergman’s claims for estoppel because
the contract between Meigs and Bergman was a
contract for services, and the claim of estoppel does not
apply “in a condition of premeditated fraudulent
inducement to contract at mediation[.]”

App. 12
On appeal Meigs argues the trial court erred in
granting summary judgment because she produced
sufficient proof to raise a genuine issue of material fact
with regard to her negligence and negligent
misrepresentation claims. Meigs failed to challenge
summary judgment on her remaining causes of action
or Bergman’s assertion that all Meigs’s causes of action
fail due to Bergman’s affirmative defense of estoppel.
When, as in this case, the order granting summary
judgment does not specify the grounds upon which the
trial court relied, we must affirm if an appellant fails to
challenge all grounds on which summary judgment
may have been granted. Dealer Computer Services, Inc.
v. DCT Hollister Rd, LLC, 574 S.W.3d 610, 621 (Tex.
App.—Houston [14th Dist.] 2019, no pet.) (citing
Malooly Bros., Inc. v. Napier, 461 S.W.2d 119, 121 (Tex.
1970)); see also Walker v. Holmes, Diggs, Eames &
Sadler, No. 14-19-00234-CV, 2020 WL 2120295, at *4
(Tex. App.—Houston [14th Dist.] May 5, 2020, no pet.)
(mem. op.) (affirming summary judgment when
appellant failed to challenge all independent bases or
grounds that could, if meritorious, support the
summary judgment dismissing his claims); Jones v.
RGJ Apartments Inc., No. 14-18-00020-CV, 2019 WL
2536185, at *2 (Tex. App.—Houston [14th Dist.] June
20, 2019, no pet.) (mem. op.) (affirming summary
judgment where appellant failed to challenge appellees’
defense of collateral estoppel, an independent,
alternative ground upon which the trial court could
have based its decision to grant summary judgment).
By failing to challenge Bergman’s affirmative
defense of estoppel by contract, Meigs has not
challenged all independent bases or grounds that could,

App. 13
if meritorious, support the summary judgment
dismissing her claims. We must, therefore, affirm the
summary judgment. See Durham, 587 S.W.3d at 183.
We overrule Meigs’s sole issue on appeal.
CONCLUSION
Having overruled appellant’s issue on appeal we
affirm the trial court’s judgment.
/s/ Jerry Zimmerer
Justice
Panel consists of Justices Christopher, Wise, and
Zimmerer.

App. 14

APPENDIX D
THE FOURTEENTH COURT OF APPEALS
No. 14-19-00167-CV
[Filed October 13, 2020]
____________________________________
WENDY MARIE MEIGS,
)
Appellant,
)
)
v.
)
)
TREY BERGMAN AND BERGMAN )
ADR GROUP,
)
Appellees.
)
____________________________________)
JUDGMENT
This cause, an appeal from the judgment in favor of
appellees, Trey Bergman and Bergman ADR Group,
signed, December 4, 2018, was heard on the appellate
record. We have inspected the record and find no error
in the judgment. We order the judgment of the court
below AFFIRMED.
We order appellant, Wendy Meigs, to pay all costs
incurred in this appeal.
We further order this decision certified below for
observance.
Judgment Rendered October 13, 2020.

App. 15
Panel Consists of Justices Christopher, Wise, and
Zimmerer. Opinion delivered by Justice Zimmerer

App. 16

APPENDIX E
IN THE DISTRICT COURT
HARRIS COUNTY, TEXAS
270TH JUDICIAL DISTRICT
No. 2017-73032
[Filed December 4, 2018]
____________________________________
WENDY MARIE MEIGS,
)
Plaintiff,
)
)
v.
)
)
TREY BERGMAN and BERGMAN
)
ADR GROUP,
)
Defendants.
)
____________________________________)
ORDER
BE IT REMEMBERED on the ________ day of
_____________, came on to be heard Defendants Trey
Bergman and Bergman ADR Group’s Traditional and
No-Evidence Motion for Summary Judgment. The
Court, having reviewed the pleadings, response, and
argument of counsel, if of the opinion that Defendants
Trey Bergman and Bergman ADR Group’s Traditional
and No-Evidence Motion for Summary Judgment
should be granted in its entirety. It is therefore,
ORDERED, ADJUDGED AND DECREED that
Defendants Trey Bergman and Bergman ADR Group’s

App. 17
Traditional and No-Evidence Motion for Summary
Judgment is GRANTED in its entirety. It is further,
ORDERED that Plaintiff Wendy Meigs take nothing
on her claims and causes of action asserted against
Defendants Trey Bergman and Bergman ADR Group
and that all Plaintiff’s causes of action are hereby
DISMISSED with prejudice.
SIGNED this _______ day of ___________, 2018.
12/4/2018 /s/ Brent Gamble
JUDGE PRESIDING

